No. ______

In the Supreme Court of the United States
________
DAMANTAE GRAHAM,
Petitioner,
v.
STATE OF OHIO
Respondent.

CERTIFICATE OF SERVICE
I, Michelle Umaña, being a member of the Bar of the Supreme Court of the
United States, pursuant to Rule 29.5(b), Rules of the Supreme Court, do hereby
certify that a copy of the foregoing Petition For Writ of Certiorari, Motion to Proceed
in Forma Pauperis, and Certificate of Service were forwarded by electronic mail to
Ms. Pamela Holder, Assistant Prosecuting Attorney, Portage County Prosecutor’s
Office, at pholder@portageco.com, on this 17th day of May, 2021.
I further certify that all parties required to be served have been served.
Respectfully submitted,
Office of the Ohio Public Defender
/s/ Michelle Umaña
Michelle Umaña [0093518]
Assistant State Public Defender
Counsel of Record
/s/ Randall Porter
Randall Porter [0005835]
Assistant State Public Defender

250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Michelle.Umana@opd.ohio.gov
Randall.Porter@opd.ohio.gov
Counsel for Damantae Graham

2

